                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: Al1090065                                                                        Page 1 of 1



                 We assessed an allegation that a PI 1 provided incomplete information in the Biographical
         Sketch and Current and Pending Support sections of multiple proposals submitted to NSF _2 We
         concluded that the PI omitted pertinent information about his external appointments and research
         support in eight submitted NSF proposals, including one awarded proposal. The cognizant NSF
         Program officer for the awarded proposal stated that the missing information would be relevant
         to review of his proposals, but there did not appear to be duplicative research. The PI also did
         not disclose his external appointments and research support to his university, and the university
         determined that these actions violated university policy. The PI subsequently resigned from his
         faculty position.

                   We wrote a Questionable Research Practice letter to the subject. Accordingly, this case is
         closed.




NSF OIG Form 2 (11/02)
